McClung v. Estevez
Case No. 20-6735

Case No. 20-6735
IN THE
SUPREME COURT OF THE UNITED STATES
•i"

From:
Supreme Court of Florida Case No. SC19-1814
Third District Court of Appeal of Fla. Case No. 3D19-1562
11th Jud. Cir. of Fla. Appellate Division Case No.13-394 AP (01)
County Court, Miami-Dade Cty, Florida Case 2011-026200 CC 23 (02)
FRANK A. McCLUNG, JR. and
MARIAN E. TELLMAN-McCLUNG,
his wife,
Petitioners,
vs.
ELIA E. ESTEVEZ,
Respondent.

PROOF OF SERVICE
WE, Frank A. McClung, Jr. and Marian E. Tellman-McClung, Petitioners, do swear or declare
that on this date, Thursday, April 15, 2021, as required by Supreme Court of the United States Rule 29,
Petitioners served the foregoing Petition for Rehearing on each party to the above proceeding or that
party's counsel, and on every other person required to be served, by depositing an envelope containing the
above document in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by deliveiy to a third party commercial carrier for delivery within 3 calendar days.
Xhe names and addresses of those served are as follows:
Andrew P. Kawel, Esq., Counsel for Respondent ELIA E. ESTEVEZ
Kawel, PLLC, 331 Almeria Avenue, Coral Gables, FL 33134
We declare under penalty of perjuty that the foregoing is true ani

•ect:

Executed on April

P.O. Box 14-2063, Gainesville,
Telephone: (352) 214-8273
QLM4sf\

14-2063

o*l
MARIAN E. TELLMAN-McCLUNG, Petitioner7
P.O. Box 14-2063, Gainesville, FL 32614-2063
Telephone: (352) 247-5063

